<html>
<title> - EXAMINING THE REGULATION OF SHARK FINNING IN THE UNITED STATES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








     EXAMINING THE REGULATION OF SHARK FINNING IN THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                 THE INTERIOR, ENERGY, AND ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            November 2, 2017

                               __________

                           Serial No. 115-51

                               __________

Printed for the use of the Committee on Oversight and Government Reform






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                      
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-612 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Jimmy Gomez, California
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
 Ryan Hambleton, Interior, Energy, and Environment Subcommittee Staff 
                                Director
                          Becca Brown, Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

         Subcommittee on the Interior, Energy, and Environment

                   Blake Farenthold, Texas, Chairman
Paul A. Gosar, Arizona, Vice Chair   Stacey E. Plaskett, Virgin Islands
Dennis Ross, Florida                 Jamie Raskin, Maryland
Gary J. Palmer, Alabama              Jimmy Gomez, California
James Comer, Kentucky                (Vacancy)
Greg Gianforte, Montana



























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 2, 2017.................................     1

                               WITNESSES

Ms. Lora Snyder, Campaign Director, Oceana, International 
  Headquarters
    Oral Statement...............................................     4
    Written Statement............................................     7
Assistant Commander Brandi L. Reeder, Fisheries Law 
  Administrator, Law Enforcement Division, Texas Parks and 
  Wildlife Department
    Oral Statement...............................................    14
    Written Statement............................................    16
Alistair D.M. Dove, Ph.D., Vice President of Research and 
  Conservation, Georgia Aquarium
    Oral Statement...............................................    23
    Written Statement............................................    25

 
     EXAMINING THE REGULATION OF SHARK FINNING IN THE UNITED STATES

                              ----------                              


                       Thursday, November 2, 2017

                  House of Representatives,
         Subcommittee on the Interior, Energy, and 
                                        Environment
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Blake Farenthold 
[chairman of the subcommittee] presiding.
    Present: Representatives Farenthold, Palmer, Comer, and 
Plaskett.
    Mr. Farenthold. The Subcommittee on the Interior, Energy, 
and the Environment will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time. We are expecting votes on the floor of the 
House around 2:30. We'd like to get as far as we can, at least 
through the opening statements, and perhaps our witnesses' 
initial testimony, and then we have a couple of votes. We take 
the House picture, which actually is very fast, and we'll get 
back here as soon as we can to finish that up. I apologize, but 
there probably will be about a half hour or so recess in the 
middle of this to allow us to do our voting.
    So good afternoon. Today, the Subcommittee on Interior, 
Energy, and the Environment will examine the regulation of 
shark finning in the United States. Despite the fact that shark 
finning is illegal in U.S. waters, many coastal states continue 
to face issues with shark finning enforcement. Today, we'll 
explore opportunities to combat the terrible practice of shark 
finning through discussing issues of enforcement, possible 
benefits of a ban, and the importance of sharks in the global 
ocean ecosystem.
    The United States has made great efforts to protect sharks 
in our territorial waters by passing the Shark Finning 
Prohibition Act of 2000, and the Shark Conservation Act of 
2010. The 2000 law prohibited the importation of shark fins 
without the corresponding carcasses and the finning of sharks 
in U.S. water. The 2010 law went a step further, prohibiting 
U.S. vessels in international waters, and all vessels in U.S. 
waters, from transporting shark fins without the corresponding 
carcass or from removing any shark fin while at sea.
    My home State of Texas recently joined the effort to end 
this inhumane treatment of sharks. On June 10, 2015, Texas 
became the 10th State to ban the trade of shark fins when 
Governor Abbott signed H.B. 1579 into law. Prior to this, Texas 
had emerged as a hub for shark fins with the State fin trade 
growing by 240 percent since 2010, after the passage of fin 
trade bans in California, Delaware, Hawaii, Illinois, 
Massachusetts, Maryland, New York, Oregon, and Washington. With 
the passage of H.B. 1579, Texas is the first Gulf State to pass 
the shark fin trade ban, and I'm proud of the effort Texas has 
made to eliminate the fin trade.
    Now is the time for the U.S. to prohibit the trade of shark 
fins completely as well. That's why I've cosponsored Chairman 
Royce's bill, the Shark Fin Sales Elimination Act of 2017, 
which prohibits processing, selling, and purchasing of shark 
fins at the Federal level. In addition to this important piece 
of legislation, I have also introduced the Justice Attributed 
to Wounded Sharks Act, or the JAWS act. This bill would end the 
United States importation of seafood products from countries 
that do not prohibit the practice of shark finning.
    Sharks are a necessary component to a healthy ocean, yet 
millions of sharks are traded annually for their fins, leaving 
certain species increasingly vulnerable, if not endangered. 
Without sharks, the ocean's ecosystems would be unbalanced. 
Sharks maintain equilibrium and order by ensuring population 
control and habitat boundaries, which is a critical component 
for ocean life. It is my hope that this hearing today will 
allow us to pinpoint solutions that will protect sharks and put 
an end to the inhumane practice of shark finning.
    I'll now recognize the ranking member of the subcommittee, 
Ms. Plaskett from the Virgin Islands, for her opening 
statement. Ms. Plaskett, you're recognized for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman, for holding this 
hearing. We can all agree that sharks play an invaluable role 
in our ecosystem. I believe we can also agree that this is 
concerning that the shark population continues to decline. We, 
as Americans and citizens of this world, can do more to stop 
this decline.
    However, what I cannot agree on is the need for a hearing 
on shark finning today instead of a hearing on the ongoing 
humanitarian crisis in the U.S. Virgin Islands. Mr. Chairman, 
most of my constituents remain in the dark because utility 
service has not been reestablished since Hurricanes Irma and 
Maria. According to reporting by The Miami Herald, 2 months 
after Hurricane Irma, and 1 month after Hurricane Maria, and I 
quote: Less than a third of the St. Thomas residents, 16 
percent of the St. Croix's customers--which is where I live--
and hardly anyone on St. John has power. Unlike Florida and 
Texas, normal life has not resumed in the U.S. Virgin Islands.
    There are children who still do not have a school to go to. 
According to The Miami Herald, many schools are still too 
damaged to reopen. Others are destroyed, are still in use as 
shelters. Limited curfews are still in effect. The curfew was 
lifted a day ago. But the schools are still closed in many 
instances.
    I am very concerned about the likelihood of many Virgin 
Islands' residents who depend on tourism for their income.
    On September 29, Ranking Member Cummings and I requested 
that Chairman Gowdy hold an emergency hearing on the 
humanitarian crisis caused by the hurricanes in the U.S. Virgin 
Islands and Puerto Rico. Chairman Gowdy declined this request 
and held member-only briefings with FEMA, the Department of 
Defense, the Department of Homeland Security, and the 
Department of Health and Human Services. I'm grateful for those 
briefings, but that is not a hearing, and it would have been 
nice if I had been consulting as to the time of those briefings 
since in more than one instance, I was traveling back to the 
ravaged Virgin Islands. Although the daily experiences of my 
constituents would have been highly relevant, two of these 
briefings were scheduled at times when I was traveling.
    It is long past the time for the Committee on Oversight and 
Government Reform to conduct oversight hearings on the slow and 
ineffective response to the devastation. I know that our 
President has said that it's a 10 out of 10. But living on the 
islands, I do not feel that, caused by the hurricanes in the 
U.S. territories of Puerto Rico and the U.S. Virgin Islands. 
With all due respect to this chairman, Chairman Farenthold, the 
witnesses, and the many people who, like me, care deeply about 
the survival of sharks in our ecosystem--we have many in the 
Caribbean and throughout our island--it is offensive that we 
are holding a hearing on this subject at a time when the U.S. 
Virgin Islands does not have one fully functioning hospital.
    Mr. Chairman, there is no better time to reach across the 
aisle than this. American citizens in the U.S. Virgin Islands 
are suffering and questioning if their government is concerned 
about them, or has forgotten about them. Let's answer these 
questions and resolve their fears with a resounding: No, we're 
here for you, we're looking out for you, and then let's prove 
it by conducting hearings on the slow and ineffective Federal 
response to the hurricanes in the U.S. Virgin Islands and 
Puerto Rico. Thank you.
    Mr. Farenthold. If the gentlelady will yield for a second. 
I have had conversations with the chairman of the full 
committee on this issue. There is some concern that our doing 
oversight at this time might further slow the recovery efforts. 
No one is more sympathetic than I am, because we went through 
something very similar in the district I represent. Many of the 
towns I represent were devastated. We had the advantage, of 
course, of not being an island, and the necessary relief and 
repair efforts were much easier to get to our physical 
location.
    But you can, please, accept my promise that this will be 
looked into, because not only do I have friends in the Virgin 
Islands, I also fully understand what it is like to--I mean, it 
was tough for me going a week without electricity. I can't 
imagine going a month without electricity. I did learn pretty 
much everything I like to do and everything I like to eat 
requires electricity.
    So you have my assurance that we're going to do our best to 
do oversight into this matter, and do everything that we can to 
make sure that we are better prepared to deal with disasters 
both on the mainland and on the islands like Puerto Rico and 
the Virgin Islands. And, in fact, I'm planning on speaking 
again to the chairman about it today, because I do think it is 
time to get moving on this.
    And, I agree, he does have a tendency to schedule things on 
fly-in days when those of us who are further away have trouble 
getting here. So rest assured, we will work on it.
    Ms. Plaskett. Thank you.
    Mr. Farenthold. And this hearing has been in the planning 
stages for several months.
    Ms. Plaskett. Thank you.
    Mr. Farenthold. So thank you very much.
    With that, I'd like to take a moment to introduce our 
witnesses.
    Ms. Lora Snyder is a Campaign Director for Oceana 
International Headquarters. Welcome.
    We have assistant commander game warden Brandi L. Reeder. 
She is a Fisheries Law Administrator for the Texas Parks and 
Wildlife Department, Law Enforcement Division. And I'm happy to 
be talking to somebody about fisheries enforcement on something 
other than Red Snapper.
    And then we have Dr. D.M. Dove. He is the Vice President of 
Research and Conservation for the Georgia Aquarium. I was 
tempted to invite someone from the Texas State Aquarium, but we 
didn't want to be too Texas heavy. And we really do appreciate 
your coming up from Georgia to visit with you.
    So welcome to all of you.
    Pursuant to committee rules, we ask that you rise and be 
sworn in before you testify.
    Would you please stand and raise your right hand. Do you 
solemnly swear or affirm that the testimony you're about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    Let the record reflect that all witnesses answered in the 
affirmative.
    You all may be seated.
    All right. Well, in order to allow time for discussion, and 
so we can hopefully get the initial statements done before 
votes, we ask that you limit your testimony to 5 minutes. Your 
entire written statement will be made part of the record. 
You've got a clock in front of you that will count down from 5 
minutes. A green light means you're good to go. A yellow light 
means speed up, you've only got a minute left. And red light 
means please wrap it up.
    Also, please remember to turn your microphones on. Since 
we're budget conscious here in Washington, we don't buy the 
most expensive fancy microphones. So it will help everyone 
here, the closer you are to the microphone, the better chance 
we have of hearing you well.
    So at this point, we'll start with Ms. Snyder. You're 
recognized for 5 minutes.

                       WITNESS STATEMENTS

                    STATEMENT OF LORA SNYDER

    Ms. Snyder. Good afternoon, Mr. Chairman and members of the 
committee. Thank you for giving me the opportunity to testify 
before you today on the issue of current shark finning laws, 
and the global shark fin trade.
    My name is Lora Snyder. I'm the Director of Oceana's Sharks 
and Responsible Fishing Campaigns. Oceana is supportive of 
efforts in Congress to conserve shark populations, including 
the Shark Fin Sales Elimination Act, which would prohibit the 
sale and possession of shark fins in the United States.
    As predators, sharks play vital roles in ecosystems all 
over the world. However, some species are now in serious 
trouble. Some populations have declined by more than 90 
percent. And if more action is not taken, other populations 
could share a similar fate. This could be damaging to the ocean 
ecosystem and to commercial fishers as their target species 
become depleted due to the unchecked growth of mid-level 
predators.
    These declines are disturbing for those in the diving and 
tourism industry as well. A recent report found that shark-
related dives in Florida generated more than $221 million in 
direct expenditures, and fueled over 3,700 jobs in 2016. This 
stands in stark contrast to the entire shark fin industry in 
the United States which exported less than $1 million of fins 
last year.
    The demand for shark fins is one of the main reasons for 
declines in shark populations. Every year, up to 73 million 
sharks ends up in the global shark fin trade. The demand for 
these fins fuels shark finning, the act of slicing the fins off 
a shark and dumping its body back at sea where it will drown, 
bleed to death, or even be eaten alive by other fish. As you 
mentioned, this practice is illegal in U.S. waters.
    Congress has already passed two bills to ban shark finning, 
which have increased protections for sharks, but more needs to 
be done as these laws do not get to the root of the problem. 
Too many sharks are being killed to fulfill the demand for 
shark fin soup. New studies have revealed that 91 percent of 
the fins in the global trade are from unsustainable sources. 
The U.S. continues to import shark fins from countries that do 
not have bans on finning, and cases of finning are still being 
uncovered.
    To help ensure that they aren't participating in this 
damaging trade, 12 States and three territories have already 
banned the trade of shark fins. Private corporations are also 
refusing to ship or sell shark fin products, including Amazon 
and Grubhub. Over 50 percent of international airlines have now 
banned shark fins, as have 17 of the 19 biggest shipping lines. 
However, as companies and States close the door on the fin 
trade, other doors remain open and the market shifts 
accordingly. For example, after a number of States enacted 
their bans, trade activity in the United States shifted 
primarily to Texas. Texas then passed the ban, and now we've 
seen that the trade has moved to Georgia. We are engaging in a 
game of Whack-a-mole. As one State closes its door, activity 
pops up elsewhere.
    On a national scale, the United States is actively 
importing fins from countries such as China, that do not have 
comparable finning regulations as the United States. In 
addition, it's unclear how many fins are coming into this 
country. According to a report by the Food and Agricultural 
Organization, other countries report sending seven times as 
many shark fins as the U.S. reported receiving. Even more 
disturbing, according to NOAA'S database, fins are still being 
imported and exported from some States that have bans on 
buying, and selling, and transporting, and possession of shark 
fins.
    Congress has made its stance clear on this issue, and yet, 
we still are creating economic incentive for the Act to 
continue. Fins from fin sharks, even likely including fins from 
sharks that are threatened or endangered, are being bought and 
sold in the United States. Additionally, previous laws did not 
address the main problem: Too many sharks are being killed, in 
large part, due to the demand for their fins.
    But this is a solvable problem. A national ban, like the 
Shark Fins Sales Elimination Act, would solve many of these 
issues. As the U.S. has led the world in fisheries management, 
and in halting the trade of other trafficked wildlife products, 
like ivory and rhino horns, so, too, should we reclaim our role 
as a leader and show the world that we will not contribute to 
the demand for fins. We shall not participate in the trade of a 
product that hurts shark populations, especially given the fact 
that sharks are critical to maintaining healthy and abundant 
oceans.
    Thank you.
    [Prepared statement of Ms. Snyder follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      Mr. Farenthold. Thank you.
    Assistant Commander Reeder, you're recognized for 5 
minutes.


                   STATEMENT OF BRANDI REEDER

    Ms. Reeder. Good afternoon, Chairman Farenthold, members of 
the subcommittee. My name is Brandi Reeder, and I'm an 
assistant commander game warden, and the Fisheries Law 
Administrator for the Texas Parks and Wildlife Law Enforcement 
Division. I want to thank you for the opportunity to speak with 
you today about this very important topic. I'm hopeful that my 
testimony will provide you with useful information to help you 
in your examination of Federal regulations prohibiting shark 
finning.
    The Texas Parks and Wildlife Department is the State agency 
primarily responsible for management of native species and 
enforcement of statutes and regulations promulgated to ensure 
protection of the State's natural resources. We work closely 
with the U.S. Coast Guard, NOAA, Office of Law Enforcement, 
U.S. Fish and Wildlife and Border Patrol to ensure State and 
Federal fishery priorities are addressed.
    Texas has 376 miles of coastline, and approximately 4 
million surface acres of saltwater that we're responsible for 
managing. Coastal fisheries creel surveys, and the commercial 
trip ticket data program, supplied in my written testimony, it 
is evident that the shark fishery in Texas is minimal. The 
commercial shark trade in Texas has been almost nonexistent for 
many years. While recreational fishing pressure remains high, 
there appears to be a slight decline in harvest. Recreational 
catch-and-release of sharks appears to be increasing. The 
practice of shark finning has only been observed in limited 
instances over the course of the last 10 years.
    As you are obviously aware of the passage of Representative 
Lucio, III's House Bill 1579, I won't go too far into how that 
was built. However, I will say that it was a comprehensive 
piece of legislation that was proactively put in place to 
combat shark finning in Texas. The bill came into statute in 
July of 2017, and it provided an offense to buy, sell, offer 
for sale, possess for purpose of sale, transport, or shipment 
for the purpose of sale, barter or exchange of shark fins. It 
provides a class B misdemeanor with enhanced penalties to a 
class A misdemeanor, which puts in place potentially up to a 
$4,000 fine and up to 1 year of jail. This is a very aggressive 
penalty, and will help serve as a deterrent to the behavior.
    In the first year of the implementation of the statute, we 
made sure to inform the public through press release, and we 
have found, overall, that through education and through this 
statute, it's been very easy to enforce as mere possession of a 
shark carcass, without fins, or possession of shark fins 
themselves, for any commercial purpose, is a violation.
    We have had a few instances to where we've observed shark 
fin cases. We had two back in 2012. And the most recent is in 
September of this year, in which we had the Animal Welfare 
Institute had notified us of possible violations in certain 
restaurants. So following up on that, two of our game wardens 
found shark fins in a restaurant, and then were directed over 
to a local retail shop and found 38 more shark fins--well, with 
incomplete shark carcasses. And 44 cases were filed. During 
that case, it was obvious that both parties knew that the 
possession of the shark fins were illegal.
    Moving on. Illegal Mexican lancha incursions in Texas State 
waters is still a problem. The illegal fishing activities 
continue in Texas State waters. Unfortunately, it is difficult 
to estimate the impact of this illegal fishing on shark 
populations off of Texas. Since 2011, Texas game wardens have 
seized over 25,000 miles of illegal gill net and over 20 miles 
of illegal longline from the Gulf of Mexico. Sharks are 
commonly caught in this gear.
    The United States Coast Guard estimated 800,000 pounds of 
red snapper have been illegally harvested annually during 
incursions of Mexican lanchas between 2013 and 2014. U.S. Coast 
Guard and Texas Parks and Wildlife game wardens have seen a 
reduction in sharks retained in lancha encounters as the market 
for red snapper has increased dramatically. Fewer sharks are 
being observed in confiscated gill nets and longline gear. 
Anecdotally, recent shark encounters have been only a quarter 
of the numbers observed in previous years.
    Let me see here. The United States Coast Guard continues to 
site and intercept a large number of lanchas each year. The 
problem does not appear to have decreased even with focused 
enforcement efforts.
    In summary, shark fishing is not a large fishery in Texas, 
commercially or recreationally, resulting in few observed cases 
of shark finning during patrols in State waters. Sharks offered 
for sale in Texas typically come from either interstate or 
foreign imports. The recent encounter of shark fins in a 
restaurant in the Dallas-Fort Worth area were imported from 
another State, offered as an off-menu item. This suggests that 
there may be an underground market for this product. While in 
the retail establishment it was clear the manager knew 
possession of the shark carcasses without fins was illegal and 
the individual tried to remove the remaining carcasses from the 
freezer where they were found.
    The proactive statute developed by Texas Representative 
Lucio III, and passed in 2015, provided penalties which were 
strong enough that repeated violation is not anticipated. Law 
enforcement experience demonstrates that regulations or 
statutes must provide penalties sufficient to deter the 
behavior on the first violation as subsequent offenses become 
more difficult to detect as future sales will be conducted more 
covertly. Cooperative, targeted enforcement efforts between 
State and Federal law enforcement are critical to discontinue 
shark finning across the United States.
    This concludes my testimony, and I'll be happy to answer 
any questions.
    [Prepared statement of Ms. Reeder follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
        
    Mr. Farenthold. Thank you very much.
    Dr. Dove, you're recognized for 5 minutes.

                STATEMENT OF ALISTAIR D.M. DOVE

    Mr. Dove. Good afternoon, committee members, and thank you 
for the opportunity to testify today. My name is Dr. Alistair 
Dove, and I'm the Vice President of Research and Conservation 
Programs at the Georgia Aquarium in Atlanta, which is a 
nonprofit organization inspiring awareness and preservation of 
our oceans and aquatic animals worldwide. I'm a broadly trained 
marine biologist with a current focus on the biology and 
conservation of whale sharks and manta rays, which I've been 
studying around the world for the last 10 years.
    U.S. shark fisheries are better managed than those of most 
countries, and for some species, at least, may even meet the 
definition of being sustainable over the long term. But in 
relative terms, it's not an especially high-value fishery. 
Sharks make up just 0.12 percent of the value of all U.S. 
fisheries, and shark fins make up less than a quarter of that 
tiny fraction. In fact, sharks are more valuable alive for the 
ecosystem services they provide, or as the targets for wildlife 
tourism. A recent analysis from Oceana showed that one in five 
scuba diving trips in Florida was specifically targeted at 
sharks, and together, these provided $126 million worth of 
value to the economy and supported over 3,800 jobs in Florida 
alone. That's 19 times more than the combined value of all 
commercial shark landings in the United States.
    But given the expertise of some of my fellow witnesses, I 
think I'd like to focus my comments more on the importance of 
sharks for a healthy marine ecosystem.
    We need a healthy ocean because it provides half of the 
oxygen we breathe. Literally, every second breath you're taking 
today was provided by the ocean, protein for billions of people 
every day, a buffer against climate change, and the greatest 
repository of undiscovered medicines on the planet, as well as 
a means to conduct more than 90 percent of international 
commerce through shipping. And a healthy ocean needs healthy 
shark populations.
    There are nearly 500 species of sharks. So it's important 
not to overgeneralize their biology or to imagine that every 
shark looks like a great white, a tiger, or a hammerhead. There 
are sharks that are as small as 6 inches when they're fully 
grown. And the two largest species, the basking shark and the 
whale shark, are not toothy predators but peaceful, filter-
feeding giants, ostensibly more similar to whales than their 
toothier relatives. Many, many species of sharks are drab deep 
sea species that feed on small invertebrates near the bottom, 
and many of these species are poorly known to science.
    It's important to recognize that new species of sharks are 
still being discovered on a regular basis. But with regard to 
the more familiar types, an ocean without large predatory 
sharks is like a sky without eagles or the Serengeti without 
lions. Science has repeatedly shown us that removal of these 
top-level sharks can cause a domino effect with significant 
impacts on the rest of the food web in a process that 
scientists call a trophic cascade. This appears especially to 
be the case on coral reefs, where sharks are often the top-
level predators, but also, the second-tier predators like the 
smaller gray reef sharks, black tip sharks, white tip sharks, 
and things like that.
    Many marine biologists will tell you a handy rule of thumb 
about the health of ocean ecosystems is that if you go scuba 
diving and you don't see a shark, there is a problem. And, 
conversely, the richest and most productive ecosystems the 
world over are those with vibrant shark populations. I've been 
lucky enough to witness this firsthand in the Galapagos Marine 
Reserve at a place called Darwin's Arch, which is home to 
enormous schools of tuna, and jack, and other pelagic and reef 
fishes. But it's also home to healthy populations of Galapagos 
sharks, silky sharks, black tip sharks, the largest whale 
sharks in the world, and schools of scalloped hammerhead sharks 
too numerous to count. According to one published study, 
Darwin's Arch may have the highest shark density anywhere in 
the world, and, yet, it's overflowing with other types of 
marine life as well. It seems counterintuitive in some way, 
but, nonetheless, it's true.
    Sharks have been fulfilling their key roles in the ocean 
for nearly 400 million years, which is millions of years before 
dinosaurs, or, indeed, any other land vertebrates. But, 
unfortunately, their life history has a critical flaw, that 
they tend to be long-lived, late to mature, and have relatively 
few well-developed offspring. It's actually a reproductive 
strategy that's quite similar to our own. But, unfortunately, 
this means that they're very sensitive to disturbance, and it 
can take a very long time for shark populations to recover if 
they get knocked back. This makes them a poor target for 
fisheries, certainly compared to a bony fish like a herring, 
for example, whose life cycle is done in just a couple of 
years, and can lay millions of eggs during that period. And 
this is, perhaps, why so few shark fisheries have achieved 
certification for long-term sustainability.
    In summary, the market demand for shark fins and meat has 
historically provided powerful incentives for overharvesting of 
shark populations internationally and here in the U.S. Science 
shows us that some U.S. species may be able to support 
sustainable fisheries. But the life history of most shark 
species makes them population-sensitive to disturbance and slow 
to recover. It's essential that we effectively regulate shark 
fisheries and restore those species that are already depleted 
because the healthy shark populations are needed if we want the 
ocean to continue to provide us with new medicines, food, and 
the very air that we breathe. Thank you.
    [Prepared statement of Mr. Dove follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Farenthold. Thank you.
    And seeing as how we've not yet called votes, we'll get 
started with some questioning. We'll start with the gentleman 
from Kentucky.
    Mr. Comer. Thank you, Mr. Chairman.
    Ms. Snyder, good to see you again. In your experience, can 
you elaborate on the response of restaurateurs in States that 
have banned shark finning.
    Ms. Snyder. Yes. Thank you. So in California--California 
was one of the first States to pass a ban. And during that, 
there was some pushback from some of the restaurant community. 
But as more and more States pass bans, we saw that--we didn't 
see it as much. And, you know, there's been a lot of really 
amazing efforts done by groups like WildAid and Yao Ming of 
raising awareness of these issues. So I would say back, you 
know, a few years ago, that we saw response, but we haven't 
been hearing anything lately.
    Mr. Comer. Okay. Ms. Reeder, there have been reported 
issues with Mexican fishermen illegally sharking in Texas 
waters. What has Texas law enforcement done to attempt to 
combat this practice?
    Ms. Reeder. Thank you. We work in cooperation with the U.S. 
Coast Guard. We've made targeted enforcement through our border 
operations, and we put focused effort on the border to try and 
limit and deter these incursions.
    Mr. Comer. Great.
    Dr. Dove, do you feel that sustainable shark fisheries is a 
potential solution to the problem? Why or why not?
    Mr. Dove. So it's important that we separate the issues of 
sustainable shark fisheries for meat and fisheries that are 
related specifically to the fin trade. I think it's important 
that we probably discourage the fin trade in any form. But it 
is possible, according to fishery scientists, that some shark 
species can be fished sustainably, species like the spiny 
dogfish on the East Coast of the United States. So it's always 
important when we talk about this question to separate the 
issues of fishing for fins and fishing for meat. And I think in 
the case of fins, it's losing popularity. In China, the 
consumption is down about 80 percent since 2014. So I think 
it's time to let this practice go, and for the United States to 
take a lead role in setting an example to not encourage that 
behavior to persist anymore.
    Mr. Comer. Thank you, Mr. Chairman. I'll yield my time 
back.
    Mr. Farenthold. Thank you very much. We'll now recognize 
the ranking member, the gentlelady from the U.S. Virgin 
Islands, for 5 minutes.
    Ms. Plaskett. Thank you, Mr. Chairman.
    Dr. Dove and Ms. Snyder, I wanted to ask you, with regard 
to climate change. Do you agree that climate change--or do you 
believe that climate change has caused the warming of our 
oceans?
    Ms. Snyder. Yes. And as the Director of Responsible Fishing 
at Oceana, so the shellfish industry in the United States is 
worth about $3 billion. And we know with ocean acidification, 
that there could be negative impacts for that industry that 
we're already seeing in the Pacific northwest for some of the 
oyster farms.
    Ms. Plaskett. And the warming is causing--how does that 
affect the shellfish?
    Ms. Snyder. So with any change in the chemistry of the 
water, the shells, which are hard, it can impact their ability 
to be strong, essentially.
    Ms. Plaskett. Got it. Thank you.
    Dr. Dove?
    Mr. Dove. Yes. We know since the beginning of the 
Industrial Revolution that the ocean has absorbed more than 25 
percent of the additional carbon dioxide emissions, and almost 
90 percent of the heat. So the ocean has been doing us a huge 
favor for a very long time in absorbing a lot of these 
emissions. The scientific consensus is clear that climate 
change is the real thing. I think most scientists have moved on 
these days to addressing what is the severity of the impact 
going to be, and what steps can we take to ameliorate those 
impacts to minimize the effect on society.
    Ms. Plaskett. So in the amelioration of that and what can 
be done, you talked about healthy oceans as a buffer. Could you 
elaborate on that?
    Mr. Dove. So healthy oceans have a number of different 
perspectives. We would love to see oceans that are abundant, 
producing, you know, plenty of food, and medicines, and other 
ecosystem services like that. But they provide other intangible 
services, too, including the protection of coastlines from 
storms that would--which I don't need to tell you anything 
about that.
    Ms. Plaskett. Sure.
    Mr. Dove. And so that's a very important service that we 
get from the ocean. And it's directly and intimately tied to 
the relationship between carbon pollution and the warming and 
acidification of oceans.
    Ms. Plaskett. When you talk about that, I know in the 
Virgin Islands, in particular, our coral reefs are really 
important to keeping sharks and as well as, you know, 
regulating the amount of waves that come into the general 
vicinity of our beaches. And the coral's health really has a 
lot to do with the warming of the ocean.
    Again, Dr. Dove and Ms. Snyder, could you each briefly 
describe for us the effects of climate change and as a form of 
warming on sharks and other aquatic life besides shellfish?
    Mr. Dove. So we know in the case of sharks, they are cold-
blooded animals, and their metabolism is driven by the 
prevailing temperature. So the more things warm up, the more 
their metabolic demands increase. And with respected to 
acidification, which is the flip side of carbon pollution in 
the ocean, more acidic oceans make it hard for sharks to smell 
their way around. Which, they live in an olfactory world. They 
smell their way around. And acidification has been demonstrated 
to change the way sharks sense their environment and impact the 
way they can smell their food. And that's a problem for them.
    Ms. Plaskett. Would it help them not just smell their food, 
but maybe smell prey or those that are--an attack against them?
    Mr. Dove. Exactly. So it may affect them in both in their 
roles--especially if they're lower-level sharks, these are 
predator sharks, we would call them. They have to be able to 
smell prey, but they also have to be able to smell predators 
that might be after them as well.
    Ms. Plaskett. Okay. Thank you.
    Ms. Snyder.
    Ms. Snyder. Yes. I'll just add that in some of the studies 
they did show that the sharks were more lethargic. And then 
there was also a study that looked at the taking away of so 
many sharks, and how that could potentially impact populations 
that eat sea grass. And seagrass is, you know, very good at 
capturing carbon. And so when you remove too many sharks and 
that next level booms, that there are impacts on the amounts of 
CO2 released from that. In fact, I think the study said that it 
was equal to all the cars in Australia.
    Ms. Plaskett. Great. And could you tell us, what could we 
be doing as legislators to combat this and to assist?
    Ms. Snyder. Well, again, from the fisheries' perspective, 
we do know that with changing ocean temperatures, that some 
fish stocks are shifting. So I think as we are thinking about 
how to manage our fishery stocks, we need to be taking that 
into account and dedicating science to seeing where are the 
fish moving and how can we better manage those populations.
    Ms. Plaskett. Okay. Dr. Dove?
    Mr. Dove. I think it's important as we go forward that we 
fill some of the knowledge gaps that we have about the impact 
of climate change. It's one of the most active areas of 
research right now.
    Ms. Plaskett. So how would we, as legislators, facilitate 
that for you?
    Mr. Dove. So through support of basic science research 
through the National Science Foundation, and NOAA, and other 
agencies that provide funding for basic research across the 
country that can help answer some of those questions.
    Ms. Plaskett. Thank you. Perfect. My time is up. I yield 
back.
    Mr. Farenthold. You hit that right on the mark. I should be 
so lucky. We may finish this before the votes. So we appreciate 
it.
    But I do have--I do have a couple of questions. And we'll 
start with Dr. Dove. And we'll let Ms. Snyder weigh in on this. 
The shark finning trade is--basically takes the fin because 
it's the most valuable piece of the shark for whatever 
properties it--people believe it has. The shark finning 
legislation typically prevents finning the shark and just 
taking the fin. And I think Ms. Reeder testified that they did 
have the whole shark in the restaurant that they busted in the 
Dallas-Fort Worth area. Is shark meat a desirable fish for 
serving at a restaurant or for human consumption? And why yes? 
Why no?
    Mr. Dove. The values of the U.S. fishery landings in total 
would argue not. I mean, you can look at the total value of 
shark fisheries in the United States at about $6.6 million in 
2015, and compare that to crab, which is $678 million, more 
than 100 times more than the shark fishery. So I think people 
vote with their taste buds a little bit, and those relative 
values will tell you about what are the most valued fisheries. 
It's not to say there isn't a place for shark or even a place 
for sustainably harvested shark. It's just so difficult to 
thread the needle and make that worth doing as the market value 
simply isn't there, if you ask me.
    Mr. Farenthold. Ms. Snyder, did you want to weigh in on 
that?
    Ms. Snyder. Yeah. I just think it is important to note, 
when you look at the most popular species in the Hong Kong fin 
trade, you look at those specific 14 species, and over 70 
percent of them are at high risk or very high risk of 
extinction. So, as Dr. Dove mentioned, there are around 500 
species of sharks. So, when you look at the ones that are the 
most popular, a number of them are in serious trouble.
    Mr. Farenthold. So, as a sportsman, you know, I have always 
been taught that you eat what you shoot, you eat what you 
catch. And so, in Hong Kong, they are only selling the fins; 
they are not selling the rest of the shark, because they 
consider there to be little economic value there. Is that 
correct?
    Ms. Snyder. I don't know that you could say that there is 
no shark meat there, but a bowl of shark-fin soup can go for 
over $100. And so, you know----
    Mr. Farenthold. That is higher than Washington, D.C., 
prices for food.
    Ms. Snyder. Yes, it is.
    But you also can look--like, for the hammerheads. So a 
number of hammerhead species, you know, face serious declines 
and are listed under international agreements of needing 
additional protection. And you look at the price, even in the 
Gulf of Mexico, a price per pound for the meat compared to the 
price per pound for the fin. So the meat goes for 25 cents, and 
then the fin can go for over $16 per pound.
    Mr. Farenthold. All right.
    And, Ms. Reeder, you do enforcement in Texas. Do you see a 
lot of recreational fishermen actually keeping their shark, or 
is it more of a catch-and-release sport? Do you have any 
numbers on that?
    Ms. Reeder. We don't have numbers on whether they are 
retained or whether they are done in caught-and-release. The 
thing is that, overall, the fishery itself is not very large on 
the recreational end. We do have plenty of recreational 
fishermen who really love that sport and are avid about it, 
which is why I believe that we have seen more catch and release 
of sharks.
    I do want to make one small correction, though, is that on 
the case that we had in Dallas----
    Mr. Farenthold. Right.
    Ms. Reeder. --some of those carcasses were actually cut in 
a way that the fillets were not available. They were actually 
harvested or cut and processed in a manner in which it was 
really just the back meat, just a very limited amount of back 
meat, and the anal and caudal fins were left.
    Mr. Farenthold. All right. Thank you very much. I 
appreciate that clarification.
    What is your biggest challenge in dealing with the shark-
fin trade as a law enforcement person?
    Ms. Reeder. I would say that, in the end, it is that if it 
goes covert, it becomes so much more difficult to detect.
    Our officers--so, to give you an example, we have 551 sworn 
game wardens in the State of Texas. We have a handful of 
dedicated investigators. So whenever you take those numbers and 
you put it to a covert operation to where you are having to 
involve your investigators, you reduce your capabilities. So 
you reduce your effectiveness.
    So, as we deploy more efforts to detect and deter this 
behavior, if it goes to a more covert and underground market, 
itis going to be more difficult to combat.
    Mr. Farenthold. And that is why you are an advocate of 
strong penalties for a first offense. Is that correct?
    Ms. Reeder. Absolutely.
    Mr. Farenthold. All right.
    Finally, Ms. Snyder, you mentioned that--I believe it was 
you--the panel did mention that the demand for shark fin in 
China, which is kind of a hub for that, is going down. Do we 
know why that is going down? And is that something we can help 
perhaps deal with on the demand side?
    Ms. Snyder. It was actually Dr. Dove who mentioned that, 
but I can speak to it a little bit.
    And then you can jump in there.
    Mr. Farenthold. So I am out of time. I will let you finish, 
then Dr. Dove, and I will technically be within the rule 
because I have quit talking.
    Ms. Snyder. Okay.
    So I would say, you know, that there have been--I mentioned 
WildAid and Yao Ming and a lot of really positive efforts in 
China. In addition, the Chinese Government made it illegal to 
serve shark-fin soup at government functions.
    And then you also saw the three state-owned Chinese 
airlines have also put bans on shipping shark fins, and Chinese 
shipping companies have as well, and that there has been a lot 
of activism within China of raising awareness for this. So that 
could be in large part why.
    But I will also let Dr. Dove speak to that.
    Mr. Dove. So I understand that there are three main reasons 
why ithas declined in China.
    The first is the aforementioned campaigns from WildAid and 
WWF and Yao Ming and others. It is the ``When the buying stops, 
the killing can too'' campaign.
    But there is also a group of pro-environment business 
leaders in China who have been advocating for better actions on 
shark and shark fins.
    But I understand that one of the biggest impacts was an 
austerity measure from Xi Jinping that essentially instructed 
all state party officials to limit expensive activities, not 
just shark-fin soup but cigarettes and alcohol and other 
activities too. So it was sort of a case of, you know, a type 
of environmentalism that came from a central authority.
    Mr. Farenthold. All right. Thank you very much.
    Ms. Plaskett, unless you have something else?
    All right. I want to say thanks again for you guys coming 
up.
    Ms. Plaskett. And thank them for all the work.
    Mr. Farenthold. Absolutely. Thank you for all the work you 
are doing. Sometimes it is thankless, doing what you do, but we 
certainly appreciate it.
    And, as you can see by some of the legislation that we have 
discussed today, it is something that we are aware of here in 
Washington, D.C., and hopefully can continue to move forward on 
this.
    So I want to thank you again for appearing.
    The hearing record will remain open for 2 weeks for any 
member to submit written opening statements or questions for 
the record. If we do get any questions, we will get in touch 
with you and see if you could answer those in writing, and we 
will include those in the record.
    If there is no further business, without objection, the 
subcommittee will stand adjourned.
    [Whereupon, at 2:47 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
